  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




      CLIA REGULATION OF
UNESTABLISHED LABORATORY TESTS




                          JULY 2001
                        OEI-05-00-00250
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452 as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them.
This statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches
to correct them.

                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William Moran,
Regional Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal
OEI staff included:


REGION                                              HEADQUARTERS

John Traczyk, Team Leader                           Bambi Straw, Program Specialist

Susan Otter, Lead Analyst

Dennis Tharp, Analyst





    To obtain copies of this report, please call the Chicago Regional Office at 312-353-4124.
         Reports are also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
                       EXECUTIVE SUMMARY

PURPOSE

       To examine how the Centers for Medicare and Medicaid Services (CMS) regulates
       laboratories conducting Live Blood Cell Analysis and other unestablished laboratory
       tests.

BACKGROUND

       The CMS has become aware that an increasing number of laboratory sites are offering
       patients Live Blood Cell Analysis and other unestablished laboratory tests. For the
       purposes of this inspection we have defined unestablished laboratory tests as those
       laboratory test methods that are not generally accepted by many of the people involved in
       traditional laboratory practice and oversight.

       One such test, Live Blood Cell Analysis, uses a drop of blood from a patient’s finger.
       The blood is placed on a slide and viewed under a specialized microscope connected to a
       video monitor. Sites where this test is performed are considered laboratories as defined
       by the Clinical Laboratory Improvement Amendments of 1988 (CLIA) and are subject to
       CLIA regulation. The CMS has encountered problems in trying to regulate Live Blood
       Cell Analysis and other unestablished laboratory tests such as Biological Terrain
       Assessment, hair analysis to assess nutritional deficiencies, food allergy testing and other
       tests.

FINDINGS

Live Blood Cell Analysis Has Not Been Able to Meet CLIA Requirements

       To date, laboratories conducting Live Blood Cell Analysis and other unestablished
       laboratory tests have not been able to meet all CLIA requirements. Many Live Blood
       Cell Analysis providers are nutritionists, herbologists, naturopaths, chiropractors and
       others who are unlikely to meet CLIA personnel requirements. All laboratories that offer
       Live Blood Cell Analysis are unable to meet requirements pertaining to the establishment
       and verification of test methods.

       An unknown, but perhaps significant, number of laboratories that offer unestablished
       laboratory tests may be operating without CLIA certification. During this study, we
       identified 200 laboratories that offer unestablished laboratory tests. Eighty percent of
       these laboratories do not have a CLIA certificate.



   CLIA and Unestablished Laboratory Tests       i                                       OEI-05-00-00250
CMS Faces Significant Barriers in Enforcing CLIA Regulations for Unestablished
Tests

       The CMS has difficulty identifying laboratories that perform unestablished laboratory
       tests and, once identified, CMS has even greater difficulties getting these laboratories
       into compliance with all CLIA requirements. The program relies on laboratories to
       voluntarily identify themselves for CLIA enrollment, but laboratories using unestablished
       test methods have few, if any, incentives to voluntarily enroll in CLIA. Moreover, CMS
       has inadequate administrative remedies that would permit them to take action against
       laboratories that refuse to enroll or comply with the Federal law.

Some Laboratories Performing Live Blood Cell Analysis May Have Improperly
Obtained CLIA Certificates

       The CMS may be unaware that laboratories with waived or provider-performed
       microscopy CLIA certificates are conducting unestablished laboratory testing. Obtaining
       these types of certificates is relatively easy. Applications from laboratories do not
       require disclosure of the use of unestablished test methods, and laboratories seeking
       waived and provider-performed microscopy certificates are not routinely visited.
       Consequently, CMS may never discover that these laboratories are performing Live
       Blood Cell Analysis or other unestablished tests.

       Laboratories performing Live Blood Cell Analysis and other unestablished tests that
       apply for a CLIA Certificate of Compliance to conduct complex testing are more likely to
       be detected and have their certificate revoked because CLIA surveyors routinely visit
       them. However, this process is resource intensive and may take up to 3 years to
       complete. Under current CMS policy, all CLIA laboratories that conduct unestablished
       tests do so outside the scope of their certificate. These certified laboratories should not
       be performing Live Blood Cell Analysis or any unestablished test.

State Agencies and Practitioner Respondents Believe Live Blood Cell Analysis
Should Be Regulated, but They Differ on How this Should Be Accomplished

       Most State agencies believe that CLIA regulation of Live Blood Cell Analysis
       laboratories would help to ensure the quality of testing and help protect patients from
       unscrupulous providers. Two-thirds of State agencies believe that CMS should change
       CLIA policies to better address Live Blood Cell Analysis and other unestablished tests.
       Most providers of unestablished laboratory tests agree that unestablished tests should be
       regulated to protect patients, but they feel that CLIA is the wrong program to do this.

Few States Restrict the Use of Unestablished Laboratory Tests; Oversight by Other
Federal Agencies Is Limited

       The CLIA program plays the primary role in oversight of laboratories. State laws and
       other Federal regulations may affect laboratories, but CMS is primarily responsible for

   CLIA and Unestablished Laboratory Tests       ii                                     OEI-05-00-00250
      overseeing the quality of testing performed at each CLIA certified laboratory. Many States
      place restrictions on who can order and receive laboratory test results, but only a few have
      laws that prohibit unestablished laboratory testing. Other Federal agencies enforce
      regulations that affect the marketing of laboratory equipment, advertising claims, and
      disposal of biohazardous materials, but these agencies have no direct oversight of
      laboratory testing practices.

RECOMMENDATIONS

      The Clinical Laboratory Improvement Amendments of 1988 were enacted to improve the
      quality of laboratory testing and to protect the public from harm that might result from poor
      quality laboratory testing. It recognizes that the risk of harm to patients differs from test to
      test. The greater the risk of harm, the greater the regulatory requirements.

      This report demonstrates that laboratories conducting Live Blood Cell Analysis and other
      unestablished tests do not fit well into the current CLIA regulatory framework. To help
      address this situation, we are recommending that CMS take the following actions:

      <	       Conduct a study to determine whether Live Blood Cell Analysis has value as a
               diagnostic tool.

      <        Establish procedures for evaluating the usefulness of other unestablished tests.

      <	       Seek new administrative authorities that would permit CMS to take specific
               actions when a laboratory fails to enroll in CLIA.

      <	       Require laboratories to disclose on their CLIA application whether they are
               conducting unestablished tests.

      <	       Improve test verification reviews by improving surveyor training and
               standardizing reviews.

      <	       Use the CMS Internet site and other means to provide the public with
               information on unestablished laboratory tests.

      Implementation of these actions should assist CMS in finding a long-term solution
      regarding laboratories conducting unestablished tests.


AGENCY COMMENTS

      The CMS concurs with all of the recommendations in this report.




  CLIA and Unestablished Laboratory Tests        iii                                     OEI-05-00-00250
                              TABLE OF CONTENTS



                                                                                                                                PAGE


EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Live Blood Cell Analysis Has Not Been Able to Meet CLIA Requirements . . . . . . . . . . . 6


          Barriers in Enforcing CLIA Regulations for Unestablished Tests . . . . . . . . . . . . . . . . . . . 7


          Some Laboratories May Have Improperly Obtained CLIA Certificates . . . . . . . . . . . . . . . 8


          Respondents Believe CLIA Needs to Change . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          State Restrictions and Federal Oversight Are Limited . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


APPENDICES


          A: CMS Comments on this Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





     CLIA and Unestablished Laboratory Tests                       iv                                                    OEI-05-00-00250
                                INTRODUCTION


PURPOSE

     To examine how the Centers for Medicare and Medicaid Services (CMS) regulates
     laboratories conducting Live Blood Cell Analysis and other unestablished laboratory
     tests.


BACKGROUND

     In 1988, Congress passed the Clinical Laboratory Improvement Amendments (CLIA).
     The CLIA law establishes “quality standards for all laboratory testing to ensure the
     accuracy, reliability and timeliness of patient test results regardless of where the test was
     performed.” The CMS is responsible for implementing CLIA, including laboratory
     registration, fee collection, onsite surveys and enforcement. The CMS contracts with
     State agencies and professional organizations to carry out the provisions of the law.

     Under current law, all laboratories except those specifically exempted by law, must be
     CLIA certified to perform testing on human specimens. The CLIA regulations define a
     laboratory as:

              [A] facility for the . . . examination of materials derived from the
              human body for the purpose of providing information for the
              diagnosis, prevention or treatment of any disease or impairment
              of, or the assessment of the health of, human beings. These
              examinations also include procedures to determine, measure, or
              otherwise describe the presence or absence of various substances
              or organisms in the body.

     The CLIA regulations exempt some laboratories from regulation. Forensic laboratories,
     drug testing laboratories certified by the Substance Abuse and Mental Health Services
     Administration and some Federal laboratories are exempt from CLIA regulation.
     Research laboratories that do not report test results to patients are also exempt from CLIA
     regulation.

     As of July 2000, nearly 170,000 laboratories were registered under CLIA. About 86,500
     laboratories have been issued a Certificate of Waiver. These laboratories only perform
     simple laboratory procedures cleared by the Food and Drug Administration (FDA).
     Laboratory surveyors do not make routine visits to waived laboratories ensure
     compliance with CLIA requirements.



 CLIA and Unestablished Laboratory Tests        1                                       OEI-05-00-00250
        Approximately 36,000 laboratories
        hold Certificates for Provider-                         Types of CLIA Certificates
        Performed Microscopy Procedures.
        These certificates are issued to                   Certificate of Waiver
        physicians and other approved                      This certificate is issued to laboratories that only
                                                           perform tests approved for home use or that employ
        providers who meet CLIA                            methodologies that are so simple and accurate the
        requirements to perform certain                    likelihood of erroneous results is negligible or they
        moderate level microscopy procedures.              pose no reasonable risk of harm to the patient if the
        In addition to specified microscopy                test is performed incorrectly. These laboratories are
        procedures, providers issued this type             not routinely visited.
        of certificate can also perform waived
        tests. As with laboratories issued a               Certificate for Provider-Performed
        Certificate of Waiver, laboratories                Microscopy Procedures
        issued a Certificate for Provider-                 This certificate is issued to laboratories where a
                                                           physician or other qualified provider performs
        Performed Microscopy Procedures are                specific microscopy procedures permitted by CLIA.
        not routinely visited by the CLIA                  Laboratories with provider-performed microscopy
        program.                                           certificates are also permitted to perform waived
                                                           tests. These laboratories are not routinely visited.
        The remaining 41,500 laboratories
        conduct moderate or high complexity         Certificate of Registration
        testing. They have been issued a            This certificate is issued to laboratories that conduct
        Certificate of Compliance or a              moderate or high complexity testing or both. This
        Certificate of Accreditation. All           certificate is issued when a laboratory’s application is
                                                    accepted by CLIA and is valid until the laboratory is
        laboratories conducting moderate and        surveyed.
        high complexity testing are required to
        meet specific CLIA requirements.
        When these laboratories apply for           Certificate of Compliance
                                                    Certificate of Accreditation
        certification they are issued a             A Certificate of Compliance or a Certificate of
        Certificate of Registration that enables    Accreditation is issued after a laboratory is surveyed
        them to participate in the Medicare and     and found to be in compliance with all applicable
        Medicaid program until an onsite visit      CLIA requirements. Routine onsite visits are made
        can be conducted to verify compliance       to these laboratories to ensure compliance.
        with CLIA standards. They are then
        issued a Certificate of Compliance.
        State and accrediting agency surveyors revisit these laboratories at least every 2 years to
        ensure continued compliance with CLIA requirements.

Live Blood Cell Analysis

        The CMS has identified several unestablished laboratory tests that use blood, urine and
        saliva.1 Live Blood Cell Analysis (LBA) uses a drop of blood from a patient’s finger.



        1
           Information we received from CMS identifies Live Blood Cell Analysis, Biological Terrain Assessment,
Thromboelastograph, dental sensitivity testing, food allergy testing and hair analysis to assess nutritional
deficiencies as “alternative” tests. These and other tests meet our definition of unestablished testing.

    CLIA and Unestablished Laboratory Tests            2                                              OEI-05-00-00250
        The blood is placed on a slide and viewed while the cells are alive using a specialized
        microscope connected to a video monitor.2 The video monitor allows patients to view
        their blood cells while the provider describes substances found in the blood sample.
        Some providers use results to assess nutritional deficiencies, to outline a course of
        treatment or to assess the effects of treatment. Other providers may use Live Blood Cell
        Analysis for other purposes.

        Under current regulations, meeting all CLIA requirements for certification is virtually
        impossible for a laboratory performing Live Blood Cell Analysis (LBA). Many LBA
        providers are complementary and alternative medicine providers such as nutritionists,
        herbologists, naturopaths, chiropractors and others who are unlikely to meet CLIA
        personnel requirements. The CMS has determined that facilities performing Live Blood
        Cell Analysis must meet CLIA requirements for high complexity testing including patient
        test management, proficiency testing, quality control and quality assurance.

        Every laboratory must establish and verify every high complexity test method used in the
        laboratory. Establishing and verifying a test method is usually demonstrated, in part, by
        1) comparing the new test results with the results obtained from established methods, 2)
        testing samples of known value, and 3) testing the same sample multiple times to see if
        the results are comparable.

        Laboratories are required to run quality control samples to ensure that a test is working
        correctly from day to day. The laboratory must also verify test accuracy by participating
        in a proficiency testing program. Because LBA is performed on freshly drawn blood
        samples, it is much more difficult to comply with these CLIA quality assurance
        requirements.

CMS’s Efforts to Address Live Blood Cell Analysis

        In 1995, CMS created a work group to address regulation of Live Blood Cell Analysis
        and other unestablished laboratory tests. The work group asked their Office of General
        Counsel and the Centers for Disease Control and Prevention (CDC) for assistance in
        understanding what role, if any, the program should play in regulating laboratories
        conducting Live Blood Cell Analysis. The Office of General Counsel advised CMS that
        laboratories conducting LBA are subject to all CLIA requirements. The CDC determined
        that laboratories performing this test must meet all of the requirements for laboratories




        2
            The laboratory method used for LBA is also used in unestablished tests with the following names:
Peripheral Blood Assessment, High Resolution Blood Morphology, High Resolution Microscopy, Live Cell
Analysis, Live Blood Demonstration, Unchanged Blood Analysis, Vital Hematology, darkfield microscopy and
nutritional microscopy.

    CLIA and Unestablished Laboratory Tests             3                                            OEI-05-00-00250
     conducting high complexity testing. The CMS posted the CDC and Office of General
     Counsel findings in a Special Alert on its website.

     The work group developed guidelines for State surveyors to help them when surveying
     laboratories conducting LBA. The work group has also asked States and their regional
     offices to provide them with information on laboratories identified as providing LBA and
     other unestablished tests.


METHODOLOGY

     For the purposes of this study, we use the term “unestablished laboratory tests” to mean
     tests that are not generally accepted by many of the people involved in traditional
     laboratory practice and oversight.

     We collected information about Live Blood Cell Analysis and some information about
     Biological Terrain Assessment, hair analysis, food allergy testing and other unestablished
     tests for this study. We focused this report on LBA because it is the unestablished test
     most often encountered by CLIA personnel, and because CMS has made an effort to
     address how this test should be regulated by the program. While this report focuses on
     Live Blood Cell Analysis, the problems in attempting to regulate laboratories doing this
     test also appear to apply to other laboratory locations that perform unestablished
     laboratory tests.

     This study did not address the validity or accuracy of LBA or any other unestablished
     laboratory test. Nothing in this report should be construed as an endorsement or
     condemnation of any laboratory test.

     We reviewed CLIA regulations, policies and procedures to determine how they relate to
     laboratories conducting Live Blood Cell Analysis and other unestablished tests. We
     interviewed CMS central office staff and regional office staff in five regions. We
     discussed CLIA enrollment and certification processes, and staff experiences relating to
     LBA testing and laboratory sites that use unestablished test methods. Similar discussions
     were held with representatives from the College on Office Laboratory Accreditation, the
     Joint Commission on Accreditation of Healthcare Organizations and the College of
     American Pathologists. These accrediting organizations were contacted because they
     have contracts with CMS to provide survey and certification services for some
     laboratories.

     We contacted the State agencies responsible for carrying out the CLIA provisions in all
     50 States, the District of Columbia and Puerto Rico. We conducted in-person interviews
     with State CLIA staff in the District of Columbia and 11 States: Arizona, California,
     Delaware, Illinois, Kansas, Maryland, Missouri, New Jersey, New York, Pennsylvania
     and Wisconsin. We discussed CLIA enrollment and certification processes and obtained



 CLIA and Unestablished Laboratory Tests     4                                       OEI-05-00-00250
         information and opinions about CLIA regulation of laboratories performing
         unestablished tests. The remaining 39 States and Puerto Rico completed written surveys.
         Overall, we received responses from 52 State agencies.3

         To identify facilities offering LBA, we solicited information from CMS central and
         regional offices, State agencies and the three accrediting organizations. We also used
         Internet searches to identify manufacturers, instructors, promoters and practitioners of
         LBA. We were unable to obtain reliable data to determine the total number of laboratory
         sites performing LBA or other unestablished laboratory tests. From the information we
         obtained, we compiled a list of laboratory sites conducting LBA and other unestablished
         tests in the United States.

         To obtain the perspective of those providers who use unestablished laboratory test
         methods, we interviewed people involved in LBA laboratory testing. We contacted
         industry representatives identified as manufacturing, promoting or offering Live Blood
         Cell Analysis. Of the 38 potential respondents that we attempted to contact, 18 agreed to
         participate in this study. Others could not be contacted or were unable to meet with us.

         We also interviewed staff at Center for Disease Control and Prevention, National
         Institutes of Health, the Food and Drug Administration, the Federal Trade Commission,
         and the Occupational Safety and Health Administration. These agencies were identified
         by State agencies and CMS staff as playing a role in regulating unestablished laboratory
         tests. We conducted these interviews to determine what, if any, oversight responsibility
         each agency has in relation to laboratory testing.

         We conducted our review in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




         3
            Collectively, the respondents from the 50 States, the District of Columbia and Puerto Rico will be
referred to as “State Agencies” or “States” in this inspection report.


    CLIA and Unestablished Laboratory Tests               5                                              OEI-05-00-00250
                                             FINDINGS


Live Blood Cell Analysis has not been able to meet CLIA
requirements
An unknown, but perhaps significant, number of Live Blood Cell Analysis sites
operate without CLIA certificates

       We identified 200 laboratories in 38 States that purport to offer Live Blood Cell Analysis
       (LBA) or other unestablished laboratory tests. One hundred fifteen sites were identified
       using information we received from CMS and State CLIA surveyors. We believe that the
       remaining 85 sites have not been identified by CMS or State survey staff.

       We checked the names and addresses of the 200 laboratory sites offering LBA against
       CLIA enrollment records and found that nearly 80 percent did not have a CLIA
       certificate. The remaining sites were certified by the CLIA program. They had been
       issued Certificates of Waiver, Certificates for Provider-Performed Microscopy
       Procedures and Certificates of Compliance. Some of these certificates were revoked
       when CMS discovered that they were doing LBA. Other certificates remain in effect
       because the laboratory has assured CMS that it has ceased performing LBA.

       We asked industry representatives to estimate the number of laboratories offering LBA.
       One respondent claims to have trained 300 to 400 American physicians to conduct LBA.
       Another respondent stated that he had trained about 3,000 practitioners. Based on his
       knowledge of the industry, this respondent estimates that between 10,000 and 15,000 sites
       may be conducting LBA in the United States.

       When a non-certified laboratory is identified, the laboratory is sent a letter advising them
       to cease testing and to apply for CLIA certification if they wish to resume testing. State
       agency respondents suspect that some laboratories that offer unestablished testing
       continue to test despite agreeing to cease and desist. Other laboratories claim they are
       exempt from CLIA because they are conducting LBA as research. To qualify for this
       exemption laboratories must agree not to provide test results to patients. Some State
       agency respondents have expressed concern that these facilities may be providing test
       results to patients.

Laboratories that perform Live Blood Cell Analysis and other unestablished
laboratory tests have difficulty meeting many CLIA requirements

       All laboratories that perform LBA must meet regulatory requirements for laboratories
       performing high complexity testing. To date, no laboratory performing LBA has



   CLIA and Unestablished Laboratory Tests       6                                       OEI-05-00-00250
        successfully met these requirements. Complementary and alternative medicine providers
       appear most likely to offer their patients LBA and other unestablished laboratory tests.
       These complementary and alternative medicine providers often do not meet CLIA
       personnel requirements for high complexity testing. Those laboratories that can meet the
       personnel requirements cannot meet other CLIA requirements. Meeting the regulatory
       requirement concerning the establishment and verification of test methods has been
       particularly problematic for the LBA test method. To meet this requirement, each
       laboratory must prove that LBA is accurate, precise and an analytically sensitive test.
       The laboratory must also establish reference ranges to distinguish normal or acceptable
       results from abnormal or unacceptable results.


CMS faces significant barriers in enforcing CLIA regulations
for unestablished tests
CMS cannot take administrative actions against laboratories that refuse to enroll
in CLIA and must rely on other agencies to take action

       According to CMS staff, CLIA’s enforcement provisions work well for CLIA certified
       laboratories, but are problematic for laboratories not enrolled in the program. When a
       State agency or CMS discovers that a laboratory is operating without a CLIA certificate,
       they send the laboratory a letter advising them that they must cease and desist from
       testing until the laboratory is CLIA certified.

       There are no administrative remedies available to CMS when a laboratory refuses to
       enroll in CLIA and refuses to cease testing. The CMS cannot impose monetary or other
       administrative penalties on laboratories that defy the law. The only course of action
       available to CMS is to refer cases to other Federal or State investigative and law
       enforcement agencies for civil suit or criminal prosecution. There are no intermediate
       remedies with more proportionate administrative penalties. Consequently, laboratories
       may be subject to criminal prosecution or civil action that may result in fines or
       imprisonment. A criminal conviction can result in a fine of up to $10,000 and up to 1
       year in prison or both.

       As with other laboratory tests that obtain a blood sample using a finger prick, obtaining
       blood for an LBA test, in itself, appears to pose little risk of harm to patients. Harm to
       patients is more likely when providers fail to recognize and take appropriate action based
       on test results and other non-test related factors. Regulations permit CMS to bring suit in
       the district court of the United States to enjoin a laboratory if CMS believes that
       continuation of an activity by a laboratory constitutes a “significant hazard to the public
       health.” It may be difficult for CMS to establish that LBA and other unestablished tests
       pose a significant hazard to patients or the public. During our in-person interviews, we
       asked State and Federal respondents whether LBA had harmed any patients. We found
       no evidence that would suggest that LBA or any other unestablished test has harmed
       patients.


   CLIA and Unestablished Laboratory Tests      7                                       OEI-05-00-00250
Getting laboratories that perform unestablished tests to enroll in the CLIA
program is difficult

       Laboratories conducting LBA have little incentive to enroll in the CLIA program. The
       main incentive for traditional laboratories to enroll under CLIA is reimbursement by
       Medicare or Medicaid. Nearly all providers bill patients directly for unestablished
       laboratory tests. Medicare, Medicaid and most other insurance programs do not cover
       these laboratory tests.

       Most State agencies believe that at least 95 percent of all laboratories in their State
       voluntarily identify themselves for CLIA enrollment. States report that laboratories
       operating without CLIA certificates often decide to enroll when Medicare and other
       insurance payers deny their claims.

       The CLIA program’s reliance on laboratories to identify themselves for enrollment is
       problematic when it comes to laboratories conducting LBA and other unestablished tests.
       Some complementary and alternative medicine providers have heard that CMS forces
       laboratories conducting Live Blood Cell Analysis to close; consequently, laboratories that
       perform LBA and other unestablished tests may seek to avoid CMS detection.

       Chiropractors, herbologists, naturopaths, nutritionist, therapists, health food store owners
       and other complementary and alternative medicine providers may be unaware of the
       CLIA program. These practitioners may not be associated with schools or organizations
       that offer a laboratory curriculum. Physicians (medical and osteopathic) who perform or
       offer their patients LBA and other unestablished laboratory tests appear more likely to be
       aware of CLIA. Traditional medical schools and professional organizations help to keep
       physicians informed about CLIA and other Federal and State regulations that affect
       laboratories. Training programs, schools and organizations for complementary and
       alternative medicine practitioners may not adequately inform their clients about CLIA
       requirements.


Some laboratories performing unestablished tests may have
improperly obtained CLIA certificates
       The number of laboratories that perform LBA and other unestablished tests is unknown.
       We do know that some laboratories doing these tests have been issued CLIA certificates.
       In some cases, a laboratory applied for a CLIA certificate because they were performing
       traditional laboratory procedures. They subsequently added LBA or other unestablished
       tests and did not notify CLIA. Others stopped doing the traditional laboratory tests that
       they were approved to perform under CLIA and only offer LBA and other unestablished
       tests.




   CLIA and Unestablished Laboratory Tests       8                                        OEI-05-00-00250
Laboratories doing unestablished tests can easily obtain a CLIA certificate

       Any laboratory, including those operated by complementary and alternative medicine
       providers, can easily obtain a CLIA Certificate of Waiver or a Certificate for Provider-
       Performed Microscopy Procedures. Applications from laboratories for these types of
       certificates may be approved and CLIA numbers issued because the CLIA application
       does not ask laboratories if they are doing LBA or any other unestablished testing. Since
       laboratories with waived and provider-performed microscopy certificates are not
       routinely visited, CMS may never know that they are performing Live Blood Cell
       Analysis or other unestablished tests and that they have been improperly issued a CLIA
       certificate.

       Laboratories that perform unestablished testing and apply for a CLIA Certificate of
       Compliance are more likely to be detected and have their certificate revoked. However,
       the process may take up to 3 years to complete. Despite the inability of laboratories
       performing LBA to meet CLIA requirements, CMS requires that surveyors complete a
       full site visit of all laboratories performing LBA that submit correctly completed
       applications. Surveyors examine and determine which CLIA requirements the laboratory
       meets. Deficiencies noted during onsite surveys are documented on Statements of
       Deficiency. Deficiency statements for some laboratories conducting LBA have
       approached 30 pages in length - significantly more than most laboratories. One LBA
       laboratory response to CLIA survey findings exceeded 200 pages, and we have seen other
       complex responses to Statements of Deficiency. The CMS must address the issues raised
       in a laboratory’s response to deficiencies cited during the survey process. After receiving
       CMS’s response the laboratory is given the opportunity to, once again, respond to CMS.
       Laboratories that meet CLIA requirements and satisfactorily pass their onsite inspection
       may not be visited for 2 years. Those that have difficulty meeting CLIA requirements are
       given up to 1 year to correct deficiencies before their CLIA certificate is revoked.

       The survey and certification process is a long and arduous process considering that no
       laboratory conducting Live Blood Cell Analysis (or other unestablished tests) has been
       able to meet all CLIA requirements. Currently, all CLIA certified laboratories that
       conduct LBA and other unestablished tests do so outside the scope of their certificate.
       These CLIA certified laboratories should not be performing LBA or other unestablished
       tests and may be violating the law.


State agencies and practitioner respondents believe Live
Blood Cell Analysis should be regulated, but they differ on
how this should be accomplished
       More than two-thirds of State agencies believe that laboratories conducting LBA create
       difficulties for CLIA enrollment and certification. State agencies reported several
       difficulties including: identifying laboratories conducting LBA, enforcing CLIA


   CLIA and Unestablished Laboratory Tests      9                                      OEI-05-00-00250
        requirements for certification for all laboratories, and fitting Live Blood Cell Analysis
       and other unestablished tests into CLIA standards. Several States reported that they
       spend an extensive amount of time and resources when laboratories doing LBA apply for
       CLIA certification.

       Laboratory surveyors and providers who offer their patients LBA disagree on the validity
       of Live Blood Cell Analysis. They also disagree as to whether CLIA is the appropriate
       program to regulate LBA and other unestablished laboratory procedures. Most State
       agency respondents and providers who offer LBA and other unestablished tests do agree
       that these tests should be regulated.

Most of our State agency respondents believe Live Blood Cell Analysis should be
regulated under CLIA to protect the public

       Most State agency respondents believe that CLIA regulation of laboratories performing
       LBA and other unestablished tests is needed to protect the public. State surveyors believe
       that they help protect the public by verifying that laboratories meet CLIA requirements
       designed to ensure accurate laboratory testing. However, CLIA surveyors cannot ensure
       that LBA laboratories conduct quality testing if the laboratory fails to enroll in CLIA.

       State surveyors are not convinced that LBA provides quality diagnostic information.
       Many State surveyors generally believe that LBA tests yield results that are inconsistent
       with basic principles of biology, chemistry and physics. One State respondent said that
       the scientific application of LBA is limited to what performance characteristics the
       laboratory can actually validate. This respondent and others believe that some
       practitioners may make claims about LBA testing that cannot be supported.

       Some State respondents also believe that laboratories performing LBA and other
       unestablished laboratory tests should be regulated because the public assumes some
       governmental agency is ensuring that their laboratory tests are reliable and accurate. One
       State respondent said, “If the public is led to believe that any test, whether standard or
       alternative, is one on which they could or should base some lifestyle adjustment, then
       there should be accountability of the testing person and the site. . . .” Another State
       respondent said that “the general public operates under the assumption that anyone in a
       laboratory coat is a professional and will operate in a professional manner.”

A majority of States believe CMS should change CLIA processes rather than the
law to address laboratories performing unestablished tests

       Two out of three States believe CLIA regulations, policies and processes should be
       adapted or changed to better address LBA and other unestablished procedures. Some
       respondents believe that clarification of processes and better guidelines would help them
       determine whether laboratories that offer LBA and other unestablished tests can comply
       with current CLIA requirements. Others believe changes to regulations, policies and




   CLIA and Unestablished Laboratory Tests     10                                      OEI-05-00-00250
       processes are needed to better address laboratories that use unestablished methods and
       offer unestablished tests.

       State agency respondents are divided as to whether the CLIA law needs to be changed to
       address laboratories that perform unestablished testing. Some State respondents believe
       that the current law is adequate. Other State respondents believe that any changes would
       dilute the existing law and encourage exceptions for other procedures. Of the States that
       would like to see a change in the law, many mentioned stronger enforcement authority. A
       few would like to see language that would specifically exclude unestablished laboratory
       tests from CLIA regulation.

Some CLIA surveyors are uncomfortable evaluating Live Blood Cell Analysis test
methods

       Several State surveyors expressed concern about their ability to evaluate non-traditional
       tests. Others indicated that CLIA regulations and policies are unclear as to what levels of
       proof are necessary to meet the regulatory requirements concerning validation of test
       methods. They mentioned that their training is based on traditional laboratory practices
       and that they often have no experience with unestablished tests. Some State surveyors
       and CMS personnel would like another entity to determine whether LBA is a reliable and
       accurate test method. If this question were resolved, CLIA surveyors felt they would be
       more comfortable evaluating LBA test validity.

Providers of unestablished laboratory tests with whom we spoke believe Live
Blood Cell Analysis should be regulated, but not by the CLIA program

       Most providers of unestablished tests with whom we spoke would like to be regulated by
       their peers and not by the CLIA program. One respondent summarized the sentiments of
       many LBA providers when he said, “CLIA is not in a position to make definitive
       statements about LBA technology.” They believe that many CLIA surveyors have little
       or no understanding of LBA. Many providers who use unestablished tests believe that
       there needs to be some checks and balances to protect the public from unscrupulous
       providers.

       One provider with whom we spoke believes that there should be no regulation of LBA
       testing when providers do not bill Medicare or other insurance. Some pathologists and
       other traditional medical practitioners who perform Live Blood Cell Analysis also shared
       this viewpoint. They believe that LBA falls within the scope of their license to practice
       medicine and that it should not be regulated under CLIA.

       Half of our provider respondents believe that an alternative laboratory division should be
       established. This new division would be responsible for registration and oversight of
       unestablished laboratory tests. It would regulate unestablished testing, set standards and
       enforce requirements. This new division would protect the public from providers who




   CLIA and Unestablished Laboratory Tests     11                                       OEI-05-00-00250
       fail to act in the best interest of their patients while not impeding access to unestablished
       laboratory tests.

A few laboratory providers want to comply with CLIA requirements but with some
modifications

       Three physician respondents who perform LBA said that they are not opposed to CLIA
       regulation. They are willing to comply with CLIA if standards more applicable to
       providers and the unestablished tests they use are developed by CMS. They believe that
       the CLIA program needs to provide more guidance on how they can come into
       compliance. They also believe that CMS needs to be more reasonable in assessing new
       technologies. One respondent said, “CLIA is going to drive the legitimate people out of
       LBA, and the illegitimate ones will prevail underground.”

       These three physicians operate laboratories certified to perform moderate and high
       complexity testing. They meet most CLIA requirements for LBA testing, but they cannot
       establish the validity of the LBA test method to meet CMS requirements.


Few States restrict unestablished laboratory testing;
oversight by other Federal agencies is limited
       The CMS plays the primary role in oversight of laboratories. Little oversight exists
       outside CLIA. Half the States require that laboratories obtain a State laboratory license,
       but the requirements for most of these licenses do not differ substantially from CLIA. A
       few States have laws that may affect laboratories offering LBA or other unestablished
       tests. Other Federal agencies have limited roles in laboratory oversight. Laboratories, the
       tests they perform and the equipment they use may also come under the scrutiny of FDA,
       CDC, the Federal Trade Commission and the Occupational Safety and Health
       Administration.

Few State laws and regulations restrict laboratories from conducting
unestablished laboratory tests

       Only three States reported that they had State statutes that they believe prohibit
       laboratories from performing unestablished testing. These three State laws, while
       somewhat different, prohibit laboratories from conducting tests that do not have
       “substantial proof of efficacy,” and are not “substantiated by an independently conducted
       and documented scientifically based clinical trial.” The Alabama Administrative Code
       states that procedures employed in a laboratory “. . . shall be the standard procedures
       which are generally accepted by leading authorities or are equivalents approved by the
       Alabama Department of Public Health.” Maryland and Pennsylvania have statutes with
       similar language. These States believe that they have the authority to deny or revoke the
       State laboratory license of any laboratory doing unestablished testing.



   CLIA and Unestablished Laboratory Tests       12                                        OEI-05-00-00250
       Several States reported that they had State laws restricting who can order or receive
       laboratory test results. Connecticut, Georgia, Hawaii, Oregon, Pennsylvania and
       Tennessee require that laboratories examine specimens only when requested by a
       physician or other person authorized by State law to use the findings of laboratory
       examinations. These States also require that laboratory test results be provided only to
       physicians or other persons authorized to receive such tests by State law. Some of these
       State laws also prohibit the reporting of laboratory test results directly to patients.

       Three States believe that complementary and alternative medicine providers may not
       meet State standards governing laboratory personnel. California, Hawaii and Tennessee
       respondents mentioned that they had State personnel standards that would affect some
       laboratories doing unestablished testing. For example, California law prohibits
       chiropractors from drawing blood and thus affects chiropractors who conduct LBA.

Federal agencies play a limited role in regulating unestablished laboratory
practices

       The CLIA provisions are intended to ensure the quality of laboratory testing. Poor test
       quality can lead to misdiagnosis, inappropriate treatment and patient harm. Only CLIA
       looks at how well laboratories perform tests. However, other Federal agencies play a role
       in regulating discrete elements of laboratory practice, including manufacturer and
       provider claims, equipment and employee safety.

       The Food and Drug Administration. The FDA’s Office of Device Evaluation ensures
       that medical devices are safe and effective. They ensure that these devices perform as
       claimed and that valid scientific evidence supports the claims made about a product. New
       medical devices for use in laboratories must receive FDA approval before manufacturers
       can market them. The FDA is also responsible for classifying new laboratory tests and
       kits into the various CLIA regulatory categories.

       Manufacturers of laboratory equipment and chemical reagents are not required to seek
       FDA approval to market products that do not substantially differ from products already
       approved by FDA. The FDA advised us that the microscopes used to perform LBA
       testing do not differ substantially from microscopes already approved by the FDA for
       other diagnostic purposes. They indicated that additional FDA approval would only be
       required if a manufacturer of the microscopes made new claims about the capabilities and
       uses for their microscope.

       Some LBA practitioners make claims as to how this test can be used to assess nutritional
       deficiencies, diseases and patient health status. These claims are made by the user and
       not the manufacturer of LBA equipment; therefore, the FDA has no jurisdiction.

       The Centers for Disease Control and Prevention. The mission of the CDC is to
       promote health and quality of life by preventing and controlling disease, injury and




   CLIA and Unestablished Laboratory Tests     13                                      OEI-05-00-00250
    disability. The CDC conducts research and provides services to meet public needs and to
    achieve public health goals. The CDC is responsible for CLIA program and policy
    evaluation. The CDC has provided support and technical advice to CMS, and has helped
    CMS in the development of CLIA regulations and guidelines. Until the year 2000 (when
    the FDA assumed this task), CDC was also responsible for classifying new laboratory
    tests and kits into the various CLIA regulatory categories. It was CDC that first advised
    CMS that laboratories performing LBA would need to meet CLIA requirements for
    laboratories doing high complexity testing.

    We asked CDC if Live Blood Cell Analysis posed any health risks to the population.
    They advised us that the risk of infection and disease transmission to patients from a
    finger prick (such as that used in LBA) is low. Our CDC respondents stressed that while
    the risk of disease transmission was low, it did not mean that no risk existed. They
    pointed out that anything contaminated with blood poses a potential biohazard. Such
    products should be properly handled and disposed of to prevent transmission of disease,
    particularly hepatitis that can remain virulent longer than most other contagious diseases.
    As with all patient provider encounters, CDC respondents expressed concern about
    potential harm that might occur when providers fail to recognize seriously ill patients.

    The Federal Trade Commission. The FTC is responsible for enforcing Federal antitrust
    and consumer protection laws. It has enforcement and administrative responsibilities for
    statutes relating to business competition and consumer protection. The FTC seeks to
    protect consumers against unfair, deceptive or fraudulent practices by combating actions
    that threaten consumers’ opportunities to exercise informed choice. The FTC can stop
    advertisers who make false claims about products.

    The FTC’s Bureau of Consumer Protection reviews the advertising claims made by
    sellers of health care products to consumers. They focus their investigation and
    prosecution efforts on large providers where they can have a greater impact and where
    national publicity is likely to have the greatest deterrent effect. Infractions by smaller
    businesses are usually addressed through more cost-effective, non-enforcement activities,
    such as consumer education. The FTC remains a potential source for CMS to use when
    they find that a provider makes false or misleading claims in their advertising about an
    unestablished laboratory test. False or misleading claims that providers make to their
    patients are not addressed by the FTC.

    As part of its oversight responsibility, the FTC monitors the Internet for sites containing
    “bogus claims for products and treatments touted as cures for various diseases.” This
    campaign, known as “Operation Cure.all” uses the Internet both as a law enforcement
    tool to identify bogus claims and as a communication tool to give consumers reliable
    health care information. Operation Cure.all has identified five areas of interest: dietary
    supplements, products that make therapeutic claims, medical devices, diagnostic tests
    (including LBA) and fraudulent foreign clinics. It is too early to evaluate the effect
    Operation Cure.all will have on laboratories performing unestablished tests.




CLIA and Unestablished Laboratory Tests      14                                       OEI-05-00-00250
    The Occupational Safety and Health Administration. Some State and CMS
    respondents suggested that OSHA could help protect patients from exposure to
    potentially harmful laboratory tests including unestablished tests. We discussed this with
    OSHA and found that its primary mission is to save lives, prevent injuries and protect the
    health of America’s workers. The Agency and its State partners ensure that employers
    provide safety guidelines and adequate protections for their employees. They ensure that
    employees are safe and that they are not exposed to hazardous materials or events in the
    workplace.

    The Health Standards Programs Division within OSHA ensures that workers follow
    universal precautions for drawing blood. They also ensure that laboratories properly
    equip their staff with the tools to perform their jobs in a safe and sterile environment, and
    that laboratories properly dispose of blood products and biohazardous wastes. To date,
    OSHA headquarters is not aware of any laboratories offering LBA that would warrant
    their intervention. The OSHA would become involved in laboratories that offer
    unestablished tests if they felt that any of these laboratories exposed their employees to
    biohazardous wastes or any other potential harm.




CLIA and Unestablished Laboratory Tests      15                                        OEI-05-00-00250
                         RECOMMENDATIONS


      The Clinical Laboratory Improvement Amendments of 1988 were enacted to improve the
      quality of laboratory testing and to protect the public from harm that might result from
      poor quality laboratory testing. It recognizes that the risk of harm to patients differs from
      test to test. The greater the risk of harm, the greater the regulatory requirements.

      This report demonstrates that laboratories conducting LBA and other unestablished tests
      do not fit well into the current CLIA regulatory framework. To help address this
      situation, we are recommending that CMS take the following actions:

      <	       Conduct a study to determine whether Live Blood Cell Analysis has value as
               a diagnostic tool.

      <	       Establish procedures for evaluating the usefulness of other unestablished
               tests.

      <	       Seek new administrative authorities that would permit CMS to take specific
               actions when a laboratory fails to enroll in CLIA.

      <	       Require laboratories to disclose on their CLIA application whether they are
               conducting unestablished tests.

      <	       Improve test verification reviews by improving surveyor training and
               standardizing reviews.

      <	       Use the CMS Internet site and other means to provide the public with
               information on unestablished laboratory tests.

      Implementation of these actions should assist CMS in finding a long-term solution
      regarding laboratories conducting unestablished tests.


AGENCY COMMENTS

      The CMS concurs with all of the recommendations in this report. The full text of their
      comments can be found in Appendix A.




  CLIA and Unestablished Laboratory Tests      16                                        OEI-05-00-00250
                                               APPENDIX A



Centers for Medicare and Medicaid Services’ Comments





CLIA and Unestablished Laboratory Tests   17         OEI-05-00-00250
CLIA and Unestablished Laboratory Tests   18   OEI-05-00-00250
CLIA and Unestablished Laboratory Tests   19   OEI-05-00-00250
